* » 4.*

No.

IN THE SUPREME COURT OF THE UNITED STATES
RONALD ANTHONY GOMEZ,
Petitioner,
vs.
CHRISTIAN PFEIFFER and
RALPH DIAZ,
Respondents.

PROOF OF SERVICE
I, Ronald A. Gomez, do declare that on this date, June _3_, 2021, as
required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party’s counsel to
the above proceeding, and on every other person required to be served,
by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with firstclass postage prepaid.
The names and addresses of those served are as follows:
Louis W. Karlin, Deputy Attorney General
300 S. Spring Street, Ste. 1702
Los Angeles, CA 90013
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June % . 2021
RONALD A/ GOMEZ

